DOE/IG-0531




  INSPECTION                          INSPECTION OF
    REPORT                     CYBER SECURITY STANDARDS
                                 FOR SENSITIVE PERSONAL
                                       INFORMATION




                                    NOVEMBER 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                             . DEPARTMENT OF ENERGY
                           OFFICE OF INSPECTOR GENERAL

                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                      November 13, 2001




MEMORANDUM FOR THE SECRETARY

FROM:         Gregory H. Friedman /s/
              Inspector General

SUBJECT:      INFORMATION: Report on “Inspection of Cyber Security Standards for
              Sensitive Personal Information”

BACKGROUND

The Office of Inspector General (OIG), U.S. Department of Energy (DOE), identified a concern
relating to the cyber security of unclassified sensitive personal information maintained by the
Department under the Privacy Act of 1974, and other personal information exempt from
disclosure under the Freedom of Information Act (Privacy Act/FOIA personal information).
Specifically, the concern related to possible compromise of this type of information on or over
DOE Headquarters and field site computer networks.

RESULTS OF INSPECTION

The OIG concluded that the Department does not always meet the requirements of the Privacy
Act of 1974, the Freedom of Information Act, or the Computer Security Act of 1987 because the
Department: 1) does not have a Department-wide baseline criteria for protecting Privacy
Act/FOIA personal information; 2) does not group Privacy Act/FOIA personal information with
other unclassified sensitive information for protection; and 3) allows individual sites and
program offices to develop differing security measures for protection of Privacy Act/FOIA
personal information.

We recommended that the Administrator, National Nuclear Security Administration and the
Chief Information Officer, in conjunction with the Director, Freedom of Information and Privacy
Acts Division evaluate the need for additional policy or direction regarding Department-wide
security requirements to protect Privacy Act/FOIA personal information maintained on, or
transmitted to and from, Department computer systems connected to the Internet, Intranet (e.g.,
DOEnet), or e-mail.
MANAGEMENT REACTION

The OIG received two sets of comments. One set was from the Director, Freedom of Information
and Privacy Acts Division, and the second set represented the combined comments of the Acting
Chief Information Officer (Acting CIO) and the Associate Administrator for Management and
Administration, National Nuclear Security Administration. Management concurred with the
recommendation.

The Director, Freedom of Information and Privacy Acts Division, stated that several actions will
be initiated to protect Privacy Act/FOIA personal information. These actions include action by
the Office of Management, Budget and Evaluation, (formerly the Office of Management and
Administration), and the Chief Financial Officer, to install a Secure Socket Layer, which
provides additional protection and confidentiality, for all servers maintaining personal
information under their purview.

The Acting CIO and Associate Administrator for Management and Administration disagreed that
Department-wide baseline criteria was necessary for all DOE elements in order to protect
Privacy Act/FOIA personal information. However, they stated that the need for policy in this
area will be a topic of discussion at the next Cyber Security Policy Working Group (PWG)
meeting scheduled for October 2001.

The PWG meeting was held on October 24, 2001. One topic of discussion at the meeting was
the development of a “Departmental Unclassified Cyber Security Management Program
Manual.” The manual’s objectives are to establish requirements for the unclassified cyber
security program, including the protection of all the Department’s information resources. A draft
of the manual will be discussed further at the next PWG meeting which is scheduled for January
2002. The manual is expected to be completed in June 2002. We are hopeful that the manual
will include minimum cyber security measures for protecting Privacy Act/FOIA personal
information.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Acting Chief Information Officer
    Director, Freedom of Information and Privacy Acts Division
    Director, Office of Management, Budget and Evaluation
    Director, Office of Executive Secretariat
INSPECTION OF CYBER SECURITY STANDARDS FOR
SENSITIVE PERSONAL INFORMATION

TABLE OF
CONTENTS

              Overview

              Introduction and Objective………………………………… 1

              Conclusion and Observations….…………………………           2

              Details of Findings…..……………………………………              4

              Cyber Space Protection for
               Unclassified Sensitive Information..………….……….…   4

              The DOEnet and E-mail………………………………..….             5

              Department Privacy Act/FOIA
               Personal Information Oversight…………………………         5

              The Computer Security Act,
               The Privacy Act, and FOIA….…………………………… 6

              Department-wide Impact…………………………………..             7

              Department-wide Cyber Security
               Risks/Threats……………………………………………..                 8

              Counterintelligence Concerns…………………………….          8

              Criminal Issues……………………………………………..                9

              Recommendation..……………………………………..….. 10

              Management Reaction………………….………………… 10

              Inspector Response……………………………………….. 13

              Appendices

              A. Scope and Methodology……………………………… 14

              B. DOE Corporate Network…..…………………………. 15

              C. Applications on DOEnet…..….………………………. 16
Overview
INTRODUCTION AND   The Office of Inspector General, U.S. Department of Energy
OBJECTIVE          (DOE) identified a concern relating to the cyber security of
                   unclassified sensitive personal information. This includes
                   information within systems of records maintained by the
                   Department under the Privacy Act of 1974 (Privacy Act), and other
                   personal privacy-type information that may be exempt from
                   disclosure under the Freedom of Information Act (FOIA).
                   Specifically, the concern related to possible compromise of this
                   type of information on or over DOE Headquarters and field site
                   computer networks.

                   The Department currently has 38 field sites networked by intranet
                   via the Department’s corporate computer network entitled
                   “DOEnet” (see Appendix B). DOEnet “is a centrally managed,
                   closed network, operated over Sprint’s public communications
                   paths, designed to carry business sensitive data to users throughout
                   the DOE federal sites.” There are several DOE systems, referred
                   to as applications, that use DOEnet or are accessed through the
                   DOEnet. Examples include: the Corporate Human Resource
                   Information System (CHRIS); Energy Time and Attendance; the
                   DOEInfo database system; the Primary Organizational Web-Based
                   Employee Records; and Travel Manager, which interfaces with the
                   Departmental Integrated Standardized Core Accounting System. A
                   complete listing of DOEnet applications, not all of which contain
                   personal information, is at Appendix C.

                   One DOE system, the DOEInfo database system, is a repository of
                   substantial information relating to the DOE Federal workforce.
                   This database contains unclassified sensitive personal information
                   that may be subject to the Privacy Act and other personal
                   information that may be exempt from disclosure under the FOIA
                   (to be referred to as Privacy Act/FOIA personal information). This
                   information includes employee personal information; payroll;
                   salary and benefits; manpower (FTE) data; Social Security
                   numbers; and employee locator information.

                   There are three ways to access the DOEInfo database: through the
                   Internet, through the DOEnet intranet, or by a hardwire to the
                   mainframe computer. DOEInfo is encrypted if it is accessed via
                   the Internet. However, DOEInfo is unencrypted as it is housed on
                   its server connected to DOEnet and is unencrypted when accessed
                   via the DOEnet. This is because DOEnet is often considered to be
                   a private network although it is operated over the Sprint network.
                   Additionally, e-mail that is routed daily throughout the Department
                   may contain Privacy Act/FOIA personal information.
                   Unencrypted e-mails sent over the DOEnet are not secure.



Page 1                                                                     Overview
                               The objective of this inspection, therefore, was to determine
                               whether the Department’s cyber security program meets the
                               requirements of the Privacy Act of 1974, the Freedom of
                               Information Act, and the Computer Security Act of 1987, to
                               adequately protect Department employees’ Privacy Act/FOIA
                               personal information from the risks associated with unauthorized
                               disclosure.

CONCLUSION AND                 We concluded that the Department does not always meet the
OBSERVATIONS                   requirements prohibiting unauthorized disclosure of Privacy
                               Act/FOIA personal information addressed in the Privacy Act of
                               1974, the Freedom of Information Act, and the Computer Security
                               Act of 1987. The Department: 1) does not have Department-wide
                               baseline criteria for protecting Privacy Act/FOIA personal
                               information; 2) does not group Privacy Act/FOIA personal
                               information with other unclassified sensitive information for
                               protection; and 3) allows individual sites and program offices to
                               develop differing security measures for protection of Privacy
                               Act/FOIA personal information. The Privacy Act of 1974 provides
                               controls on maintenance of information in a Privacy Act system of
                               records, the Freedom of Information Act provides exemptions
                               from disclosure, and the Computer Security Act provides that this
                               type of data be treated, and protected, in the same manner as
                               national interest information.

                               Guidelines for the Privacy Act/FOIA personal information for the
                               Department is managed by two offices - the Freedom of
                               Information Act/Privacy Act Office, under the purview of the
                               Office of Management and Administration; and the Office of the
                               Chief Information Officer (CIO), under the purview of the Office
                               of Security and Emergency Operations. 1 Although the CIO
                               recently purchased 20,000 Public Key Infrastructure (PKI) licenses
                               with encryption capability, there is no DOE requirement that the
                               PKI be used as a security measure for e-mail and file data transfers
                               by DOE employees. At present, the Department, which includes
                               the National Nuclear Security Administration, does not have
                               Department-wide uniform controls, such as encryption, to protect
                               Privacy Act/FOIA personal information. As a result, the
                               Department has no baseline cyber security requirement to ensure
                               adequate security of Privacy Act/FOIA personal information.
                               Instead, the Department’s current policy allows each DOE site to
                               determine the risk associated with the loss of Privacy Act/FOIA
                               personal information when implementing cyber security. Each

    1 Effective October 1, 2001, the Offices of Management and Administration and the Chief Financial

Officer were merged and renamed the Office of Management, Budget and Evaluation. Additionally, the
Chief Information Officer became a separate office reporting to the Office of the Secretary.


Page 2                                                                                    Overview
                                DOE site, therefore, may have differing security measures for
                                Privacy Act/FOIA personal information though that type of
                                information is the same throughout the Department. 2

                                From a security standpoint, each site prepares against what the site
                                determines to be a security threat. That site may not determine that
                                the risk for loss of Privacy Act/FOIA personal information to be as
                                high a security threat as another site, but threats to Privacy
                                Act/FOIA personal information is not site-specific. The risk to
                                Privacy Act/FOIA personal information is the same throughout the
                                Department as long as it is on the DOEnet.

                                We concluded there should be a baseline policy throughout the
                                Department concerning the protection of Privacy Act/FOIA
                                personal information to protect DOE employees and guard against
                                the risk of compromise of their personal information. These risks
                                include identity theft and intelligence targeting; and the risk of
                                potential litigation against the Department if the Department is
                                remiss in its responsibility to protect Privacy Act/FOIA personal
                                information.




    2The focus of this review was on Department-wide policy and, therefore, this inspection did not
evaluate the cyber security measures taken at individual sites.


Page 3                                                                                      Overview
Details of Findings
Cyber Space                   DOE Notice DOE N 205.1, “Unclassified Cyber Security
Protection for                Program,”3 initiated by the Office of the Chief Information Officer,
Unclassified                  establishes the framework for the Department’s Unclassified Cyber
Sensitive                     Security Program.
Information
                              DOE N 205.1 directs each Departmental organization to develop
                              an individual Cyber Security Program Plan for protecting DOE
                              information and information systems. The Cyber Security Plan is
                              based on an organization’s risk assessment of its environment,
                              mission, and possible threats weighed against the harm incurred if
                              information is lost, misused, disclosed, or modified without
                              authorization. An objective of DOE N 205.1 is “To ensure that the
                              DOE Unclassified Cyber Security Program achieves the objectives
                              of Federal and State regulations, Executive Orders, national
                              security directives, and other regulations.”

                              DOE N 205.1 states that Privacy Act/FOIA personal information,
                              along with Unclassified Controlled Nuclear Information, Naval
                              Nuclear Propulsion Information, and Export Controlled
                              Information, may require additional performance measures when a
                              DOE site or program office develops its Cyber Security Program
                              Plan. According to an official from the Office of the Chief
                              Information Officer, DOE N 205.1 identifies two categories of
                              unclassified sensitive information. In the first category, the
                              Department “owners” of Unclassified Controlled Nuclear
                              Information, Export Controlled Information, and Naval Nuclear
                              Propulsion Information, have provided policy on how these types
                              of unclassified sensitive information are to be managed throughout
                              the Department. Therefore, when a DOE site or program office is
                              developing its specific Cyber Security Program Plan, that site or
                              program office must include the security requirements of Federal
                              and state regulations, Executive Orders, national security
                              directives, and also Department “owner” regulations. For
                              example, the Department “owner” of Unclassified Controlled
                              Nuclear Information requires encryption if the information is being
                              transmitted over a public communications path.

                              The second category identified in DOE N 205.1, includes Privacy
                              Act unclassified sensitive information. The Notice does not
                              require a Department-wide standard for all sites when protecting
                              Privacy Act/FOIA personal information. Each DOE element can
                              tailor its own protection mechanisms.


   3 The CIO has recently issued for comment Draft DOE O 205.1, “Departmental Cyber Security

Management Program.” The Draft Order does not provide any additional security measures specific to
Privacy Act/FOIA.


Page 4                                                                         Details of Findings
The DOEnet              In addition to the concern that site-specific Cyber Security
and E-mail              Program Plans may not be adequately protecting Privacy
                        Act/FOIA personal information, there is a risk of compromise for
                        Privacy Act/FOIA personal information accessible via DOEnet
                        applications and used in e-mails. DOEnet is a private network run
                        on a public communications path. DOEnet officials told us that the
                        application owner is responsible for applying appropriate security
                        measures. Several application owners include Privacy Act/FOIA
                        personal information in the data connected to or transmitted over
                        DOEnet. Some application owners have applied encryption to the
                        data when it is accessed via the Internet, but other owners have not.

                        DOE employee e-mails sometimes contain personal information
                        that may be subject to the Privacy Act/FOIA. According to a
                        Headquarters information technology official, if e-mails are not
                        encrypted then it is “buyer beware.” In other words, the intended
                        recipient may not be the only individual receiving the e-mail.
                        According to a May 11, 2000, memorandum, from the then CIO,
                        “All should be aware that information sent over the Internet or as
                        attachments to electronic mail can be monitored, recorded, and
                        accessed by the general public.”

Department Privacy      There are two “owners” providing policy on Privacy Act/FOIA
Act/FOIA Personal       personal information. “Owners” are the system managers, or
Information Oversight   custodians, of data for the Department’s system of records. The
                        first “owner” is the Freedom of Information Act/Privacy Act
                        Office, Office of the Executive Secretariat, Office of Management
                        and Administration, which is responsible for administering
                        policies, programs, and procedures for management of Privacy
                        Act/FOIA personal information throughout the Department.
                        However, under the Office of Management and Budget Circular
                        A-130, “Management of Federal Information Resources,” the
                        second “owner” is the Office of the Chief Information Officer,
                        Office of Security and Emergency Operations, which is assigned
                        authority over Privacy Act/FOIA personal information.

                        We determined that the “owners” have not provided adequate
                        protection requirements throughout the Department because the
                        Freedom of Information Act/Privacy Act Office and the Office of
                        the Chief Information Officer have not required a baseline
                        Department-wide standard for all sites. A baseline standard would
                        assist the Department in protecting its Privacy Act System of
                        Records from unauthorized disclosure and protection in the same
                        manner as national interest information.




Page 5                                                                  Details of Findings
The Computer       As indicated above, DOE N 205.1 treats Privacy Act unclassified
Security Act,      sensitive information (Privacy Act/FOIA personal information)
The Privacy Act,   differently than Unclassified Controlled Nuclear Information,
and FOIA           Naval Nuclear Propulsion Information, and Export Controlled
                   Information. We determined that this may be inconsistent with the
                   intent of the Computer Security Act of 1987 (Public Law 100-
                   235), which treats Privacy Act information in the same way as
                   national interest information, such as Unclassified Controlled
                   Nuclear Information, Naval Nuclear Propulsion Information, and
                   Export Controlled Information. Specifically, the Computer
                   Security Act of 1987 defines sensitive information to include any
                   information that “the loss, misuse, or unauthorized access to or
                   modification of which could adversely affect the national interest
                   or the conduct of Federal programs, or the privacy to which
                   individuals are entitled under section 552a of title 5, United States
                   Code (the Privacy Act).” In addition, for information maintained
                   in a system of records, the Department is required by the Privacy
                   Act to:

                          . . . establish appropriate administrative, technical,
                          and physical safeguards to insure the security and
                          confidentiality of records and to protect against any
                          anticipated threats or hazards to their security or
                          integrity which could result in substantial harm,
                          embarrassment, inconvenience, or unfairness to any
                          individual on whom information is maintained.

                   Also, according to FOIA, information exempted from disclosure
                   contains “personnel . . . and similar files the disclosure of which
                   would constitute a clearly unwarranted invasion of personal
                   privacy.”

                   Appendix III to Office of Management and Budget (OMB)
                   Circular No. A-130, “Security of Federal Automated Information
                   Resources,” establishes minimum controls to be included in
                   Federal automated information security programs and incorporates
                   requirements of the Computer Security Act of 1987 and
                   responsibilities assigned in applicable national security directives.
                   Appendix IV to OMB Circular No. A-130, “Analysis of Key
                   Sections,” section 3., “Analysis,” requires agencies to provide
                   appropriate protection to government information; assess the risks
                   associated with maintenance and use; and meet the requirements of
                   the Privacy Act of 1974 and the Computer Security Act of 1987.

                   We determined that the Department does not always meet the
                   requirements prohibiting unauthorized disclosure of Privacy



Page 6                                                             Details of Findings
                  Act/FOIA personal information addressed in the Privacy Act of
                  1974, the Freedom of Information Act, and the Computer Security
                  Act of 1987. The Department: 1) does not have Department-wide
                  baseline criteria for protecting Privacy Act/FOIA personal
                  information; 2) does not group Privacy Act/FOIA personal
                  information with other unclassified sensitive information for
                  protection; and 3) allows individual sites and program offices to
                  develop differing security measures for protection of Privacy
                  Act/FOIA personal information.

                  The Department’s failure to ensure security and confidentiality of
                  personal information against threats that can be anticipated is
                  contrary to its own DOE N 205.1 which, as previously cited,
                  requires the DOE Unclassified Cyber Security Program to achieve
                  the objectives of Federal law. Additionally, by not meeting the
                  requirements of the Privacy Act of 1974, the Freedom of
                  Information Act, or the Computer Security Act of 1987: 1) there is
                  the potential for litigation against the Department due to
                  inadequate cyber security; and 2) there is the risk that the
                  Department’s employees may be subject to identity theft and
                  intelligence targeting.

                  The benefit of a baseline cyber security requirement is not only for
                  the individual stationed at any site, but for the Department in
                  meeting the requirements of the Privacy Act of 1974, the Freedom
                  of Information Act, and the Computer Security Act of 1987.

Department-wide   A Department-wide policy on protection of PA/FOIA personal
Impact            information would not only aid the Department in protecting
                  against security threats and liability, but would assist with
                  protecting employees from potential risks. In spite of the Privacy
                  Act of 1974, the Freedom of Information Act, and the Computer
                  Security Act of 1987, the Department has chosen to allow each
                  “Departmental organization” to develop an individual Cyber
                  Security Program Plan for protecting information and information
                  systems at its site. However, it is the Department’s responsibility
                  to protect all its employees, not just those at sites with better cyber
                  security measures. Although there are no absolutes in security,
                  having a baseline security policy for Privacy Act/FOIA personal
                  information is one step closer to ensuring that there will be
                  minimum loss, misuse, or unauthorized access to or modification
                  of the privacy to which individuals are entitled under section 552a
                  of title 5.

                  The following sections highlight the potential risks of identity theft
                  and intelligence targeting through increased cyber security attacks,



Page 7                                                              Details of Findings
                      and the need for standard security measures throughout the
                      Department.

Department-wide       The Computer Incident Advisory Capability (CIAC), an element of
Cyber Security        the Computer Security Technology Center at Lawrence Livermore
Risks/Threats         National Laboratory was established in 1989 to serve the DOE
                      community. CIAC is recognized nationally and internationally and
                      is a founding member of the “Forum of Incident Response and
                      Security Teams,” a “global organization established to foster
                      cooperation and coordination among computer security teams
                      worldwide.” The CIAC provides statistical data on the number of
                      cyber security incidents throughout the DOE community. CIAC’s
                      Fiscal Year (FY) 1999 Annual Report to the Department identified
                      that “The number of incidents reported to CIAC for FY 1999
                      increased to 231% of that of FY 1998.” The report attributes these
                      incidents to several factors including an “Increased population of
                      potential hackers because of the growth of the Internet,” and “The
                      continuing rise in reconnaissance activities [by adversaries]
                      including scans and probes.”

                      CIAC defines a security incident on a computer system as “any
                      adverse event in a computer system or network that threatens the
                      security of the system or network, its data, or availability.”
                      Incidents include “scanning, denial-of-service, attempted
                      compromises, or actual compromises called intrusions.”

                      Using a baseline of 103 DOE sites for their report, CIAC handled
                      3,080 DOE incidents in FY 1999, compared to 1,335 for FY 1998.
                      According to CIAC, there were 130 successful intrusions in
                      FY 1999 as compared to 123 in FY 1998. Forty-six DOE sites
                      reported at least one incident in FY 1999. There may be both
                      counterintelligence and criminal concerns associated with access to
                      Privacy Act/FOIA personal information. As discussed in a recent
                      OIG audit report, “Virus Protection Strategies and Computer
                      Incident Reporting,” DOE/OIG-0500, April 2001, the statistics
                      presented above are based on a reporting rate of less than 50
                      percent.

Counterintelligence   According to the Department’s Nonproliferation and National
Concerns              Security Institute’s “Counterintelligence Awareness Guide,”
                      “Foreign intelligence collectors are pursuing a broader range of
                      targets, and it is relatively easy for them to establish contact with
                      and assess Americans who have access to valuable classified,
                      controlled or proprietary information.” Foreign intelligence
                      operatives can target individuals for contact more easily if they
                      know personal information such as an individual’s social security



Page 8                                                                 Details of Findings
           number, birth date, home address, title, security clearance level, or
           banking information.

           Counterintelligence issues are addressed in DOE O 5670.3,
           “Counterintelligence Program,” which emphasizes the importance
           of protecting sensitive and proprietary data from foreign nationals
           and sensitive countries. Counterintelligence concerns are raised by
           scans and attacks from DOE sensitive countries. This is illustrated
           for FY 1999 in the following chart.

                                     Incidents by Sensitive Countries
                                       (24% of all foreign incidents,
                                          11.1% of all incidents)
                                      Taiwan (16)   Ukraine (3)
                                        (4.7%)        (0.9%)      Belarus (1)
                                                                    (0.3%)


                            Russia (72)
                             (21.0%)



                      Pakistan (3)
                        (0.9%)                                                  China (186)
                      Kazakhstan                                                 (54.2%)
                       (1) (0.3%)

                              Israel (47)
                               (13.7%)
                                      India (2)     Hong Kong
                                       (0.6%)       (12) (3.5%)



           According to CIAC, of the 3,080 incidents, 1,412 incidents had at
           least one foreign source. “In looking at the 1,412 incidents
           involving apparent non-U.S. sources, 40 resulted in an actual
           system compromise. All of the rest fall into the category of
           attempts and reconnaissance—scans and probes. These incidents
           document that DOE systems are the targets of hackers and that the
           compromise of Privacy Act/FOIA personal information cannot be
           discounted.

           In commenting on the statistics in the draft version of this report,
           management pointed out that for fiscal year 2001, “intrusion and
           web defacements has dropped by more than half while the number
           of scans and probes has escalated by a factor of 10.”

Criminal   Criminal issues are addressed, in part, by 18 USC § 1030, “Fraud
Issues     and related activity in connection with computers,” and 18 USC
           § 1028, “Fraud and related activity in connection with
           identification documents and information,” also known as identity
           theft. According to the U.S. Postal Inspection Service:


Page 9                                                               Details of Findings
                             Identity theft involves acquiring key pieces of
                             someone’s identifying information, such as name,
                             address, date of birth, social security number and
                             mother’s maiden name, in order to impersonate
                             them. This information enables the identity thief to
                             commit numerous forms of fraud which include, but
                             are not limited to, taking over the victim’s financial
                             accounts, opening new bank accounts, purchasing
                             automobiles, applying for loans, credit cards and
                             social security benefits, renting apartments, and
                             establishing services with utility and phone
                             companies.

                      If, through connection or transmission over DOE computer
                      networks, Privacy Act/FOIA personal information relating to
                      specific individuals is compromised due to inconsistent approaches
                      to security, identity theft could take place and result in substantial
                      harm, embarrassment, inconvenience, or unfairness to the affected
                      individual employee, and potential litigation against the
                      Department.

RECOMMENDATION        We recommend that the Administrator, National Nuclear Security
                      Administration, and the Chief Information Officer, in conjunction
                      with the Director, Freedom of Information and Privacy Acts
                      Division:

                      Evaluate the need for additional policy or direction regarding a
                      Department-wide security requirement to protect Privacy
                      Act/FOIA personal information maintained on, or transmitted to
                      and from, Department computer systems connected to the Internet,
                      Intranet (e.g., DOEnet), or e-mail.

MANAGEMENT            The OIG received two sets of comments. One set was from the
REACTION              Director, Freedom of Information and Privacy Acts Division, and
                      the second set represented the combined comments of the Acting
                      Chief Information Officer (Acting CIO) and the Associate
                      Administrator for Management and Administration, National
                      Nuclear Security Administration (Associate Administrator).
                      Management concurred with the recommendation.

FOIA/Privacy Act      The Director, Freedom of Information and Privacy Acts Division
Director’s Comments   stated that the following actions will be initiated:

                             “1) Instructions will be issued to all Department
                             FOIA Officers and Contacts to consult and
                             coordinate with their information management


Page 10                                                             Recommendation
                                                                Management Reaction
                         personnel to implement safeguards to protect
                         personal information that is maintained, preserved
                         and transmitted electronically from unauthorized
                         access during electronic transmission.

                         2) Systems of information will be reviewed to
                         identify any other systems at the Department that
                         may contain personal information and that should
                         be protected from unauthorized access during
                         electronic transmission.

                         3) The Department’s Compilation of System of
                         Records Established Under the Privacy Act will be
                         amended to identify the safeguards that have been
                         established to protect personal information that is
                         maintained subject to the Privacy Act from
                         unauthorized access.

                         4) Public Key Infrastructure Technology will be
                         developed and implemented by the Office of
                         Management [and] Administration (MA) in
                         conjunction with the Office of the Chief
                         Information Officer to safeguard all systems that
                         maintain, preserve and transmit personal
                         information electronically from unauthorized
                         access.”

                  The Director also stated he had been advised by the Office of
                  Management, Budget and Evaluation that they have identified their
                  systems containing personal information and will work with the
                  Office of the Chief Information Officer to install a Secure Socket
                  Layer for all their servers maintaining personal information. The
                  Director went on to explain that a Secure Socket Layer provides
                  additional protection and confidentiality for the personal
                  information maintained on or transmitted from the servers.

Acting CIO’s/     The Acting CIO and Associate Administrator stated that the CIO
Associate         published DOE Guideline 205.1-1, Cyber Security Architecture,
Administrator’s   on March 8, 2001. The Guideline recommends Department-wide
Comments          baseline criteria for protecting all information, including personal
                  information subject to the Privacy Act and FOIA. They also stated
                  that the CIO is establishing a framework of objectives, guiding
                  principles, and security activities and functions, applicable to the
                  classified and unclassified environments, to govern consistent
                  implementation of cyber security management and objectives of
                  Federal and State regulations throughout the Department.



Page 11                                                    Management Reaction
          Despite these actions, the Acting CIO and Associate Administrator
          disagreed with our conclusion that the Department does not always
          meet the requirements of the Privacy Act, FOIA, or the Computer
          Security Act because the Department: 1) does not have
          Department-wide baseline criteria for protecting Privacy Act/FOIA
          personal information; 2) does not group Privacy Act/FOIA
          personal information with other unclassified sensitive information
          for protection; and 3) allows individual sites and program offices
          to develop differing security measures for protection of Privacy
          Act/FOIA personal information.

          The Acting CIO and Associate Administrator determined that
          recommending a Department-wide baseline criteria for computer
          system protection is sufficient guidance to system owners and that
          system owners are expected to protect sensitive data using the
          Department’s recommended guidance. They stated that DOE
          policy contains an objective to ensure the confidentiality, integrity,
          availability, and accountability of information; and that
          information resources must be protected commensurate with the
          risks and threats of its environment. They also stated that an
          agency is not restricted from establishing different security
          measures across program lines.

          The Acting CIO and Associate Administrator agreed that the
          Department does not have Department-wide uniform controls, such
          as encryption, to protect Privacy Act/FOIA personal information,
          but noted that the Department does require each site to evaluate the
          risks and threats to its information taking into consideration the
          mission of each organization and the environment in which they
          operate.

          Finally, the Acting CIO and Associate Administrator said that at
          the October 2001 Cyber Security Policy Working Group (PWG)
          meeting they would discuss the need for additional policy or
          direction regarding a Department-wide security requirement to
          protect personal information. The PWG meeting was held on
          October 24, 2001, and mentioned development of the
          Departmental Unclassified Cyber Security Management Program
          Manual. The manual’s objectives are to establish requirements for
          the unclassified cyber security program, including the protection of
          all the Department’s information resources. It is expected the
          manual will be completed in June 2002. The next PWG meeting is
          scheduled for January 2002.




Page 12                                                Inspector Response
Overview
INSPECTOR   The comments provided by the Director, Freedom of Information
RESPONSE    and Privacy Acts Division, were responsive to the
            recommendation. Regarding comments from the Acting CIO and
            Associate Administrator, we are encouraged that the Acting CIO is
            establishing a framework of objectives, guiding principles, and
            security activities and functions to govern consistent
            implementation of cyber security management and objectives
            throughout the Department. We are also encouraged that the
            Cyber Security Policy Working Group discussed the need for
            policy at their October 24, 2001, meeting. However, a
            representative from the Freedom of Information and Privacy Acts
            Division was not in attendance at the meeting. We recommend
            that all parties responsible for protection of Privacy Act/FOIA
            personal information be included in future meetings.

            We continue to believe that guidance for Department-wide
            baseline criteria is inadequate because Departmental guidance does
            not require all DOE elements to take minimum cyber security
            measures for protecting Privacy Act/FOIA personal information.
            We agree with management that open science, on one hand, and
            national defense, on the other hand, do not need the same level of
            cyber security. However, the personal information concerning an
            employee located at the Thomas Jefferson National Accelerator
            Facility should have the same minimum protection as an employee
            at the Y-12 National Security Complex. The cyber risk to these
            employees is the same regardless of their office affiliation or
            location.

            Management’s general comments have been incorporated into the
            report where appropriate.




Page 13                                                            Overview
Appendix A
SCOPE         The Office of Inspector General, U.S. Department of Energy,
              identified a concern relating to the cyber security of unclassified
              sensitive personal information maintained by the Department
              under the Privacy Act of 1974 and other personal information
              exempt from disclosure under the Freedom of Information Act.
              The OIG announced this inspection in September 2000.

METHODOLOGY   In conducting this inspection, the OIG identified and reviewed
              applicable Federal and DOE regulations. The OIG interviewed
              DOE and contractor officials and employees as well as officials
              from the Office of Management and Budget and the National
              Institute of Standards and Technology, an agency of the U.S.
              Department of Commerce’s Technology Administration. The OIG
              also reviewed key documents applicable to the inspection.




Page 14                                                Scope and Methodology
Appendix B




Page 15      DOE Corporate Network
Appendix C
              Department of Energy Corporate Network (DOEnet)
Application Registry
June 2000




                       Application                                         Acronym
 1. Automated Transportation                                                ATMS
 2. Management System

 3. Business Management Information System for Financial                   BMIS-FM
     Management
 4. Corporate Human Resource Information System                            CHRIS
 5. Departmental Integrated Standardized Core Accounting System            DISCAS
 6. DOE Integrated Safeguards and Security System                           DISS
 7. Electronic Commerce                                                    EC Web
 8. Energy Time and Attendance                                              ETA
 9. Executive Information System                                             EIS
 10. Frequency Assignment Status                                          FASTAT
 11. Management Analysis Reporting System (MARS)/Financial                MARS/FIS
     Information System
 12. Procurement and Assistance Data System                                 PADS
 13. Primary Organizational Web-Based Employee Records                     POWER
 14. Safeguards and Security Information Management System                  SSIMS
 15. WIPP Waste Information System                                          WWIS




Page 16                                                           Applications on DOEnet
                                                                    IG Report No.: DOE/IG-0531

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer
    Friendly and cost effective as possible. Therefore, this report will be available
        Electronically through the Internet at the following alternative address:

          U.S. Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
